*

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-1992
Randall Thomas McArty
Petitioner
v.
Dexter Payne
Respondent
Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(5:03-cv-00390-GH)
JUDGMENT
Before BENTON, SHEPHERD, and KELLY, Circuit Judges.

The motion for authorization to file a successive habeas application in the district court is
denied. Mandate shall issue forthwith.
August 06, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

